NRC: OIG/98A-13 - NRC's License Renewal Program
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1999
> OIG/98A-13
OIG/98A-13 - NRC's License Renewal Program
November 13, 1998
MEMORANDUM TO:
William D. Travers Executive Director for Operations
FROM:
Thomas J. Barchi Assistant Inspector General for Audits
SUBJECT:
NRC'S LICENSE RENEWAL PROGRAM
The Office of the Inspector General has completed its initial review of NRC's license renewal program.  On November 5, 1998, we briefed officials from the Offices of the Executive Director for Operations and Nuclear Reactor Regulation.  An expanded version of the briefing document distributed to those officials is attached.
As stated in the attached briefing paper, the agency's license renewal program is still evolving.  We found that the agency is reassessing its procedures and taking steps toward making the license renewal process more efficient.  Industry representatives noted, in particular, their confidence in the Director, License Renewal Project Directorate, and acknowledged his leadership efforts for the communication that exists between NRC and the industry.
We discussed our observations regarding NRC's progress at the briefing, and included those  observations in the attached document.  We will continue to monitor the agency's progress in structuring its license renewal program and developing its guidance, which is now in draft form.  We have discussed our planned future activities in this area with the responsible officials.
If I can provide any additional information, please call me at 415-5915.
Attachment: As stated
Office of the Inspector General Nuclear Regulatory Commission November 5, 1998
Introduction
OIG's Work
Overall Results
Future Work
Introduction
The Atomic Energy Act of 1954 and the U.S. Nuclear Regulatory Commission (NRC) regulations limit commercial nuclear power reactor licenses to 40 years.  However, licensees have the option of renewing these operating licenses for an additional 20 years.  There are currently 104 operating commercial nuclear power plants in the United States.  The first operating license issued will expire in 2006, and approximately 40 percent of the current licenses will expire by the year 2015.
NRC's Office of Nuclear Reactor Regulation (NRR) has primary responsibility for implementing the license renewal program.  NRR staff initially estimated that it could take 3 to 5 years to conduct detailed technical reviews, complete hearings on the applications, and reach a decision on renewal.  Currently, two licensees have submitted applications for renewing their operating licenses, and several others have expressed interest in renewal.  Meanwhile, the industry is closely observing the development of NRC's review process.
In June 1998, the Office of the Inspector General (OIG) initiated a review of the NRC's license renewal program.  This effort was initiated in response to industry, public, and Congressional interest in NRC's license renewal process.  Our objectives were to determine (1) if it would take the NRC 3 to 5 years to process and decide on renewal requests, and (2) if licensees believe the NRC has provided clear and reasonable guidance regarding what should be submitted in support of a license renewal application.
OIG's Work
1. Interviews
We conducted interviews with staff from the following: Nuclear Reactor Regulation, License Renewal Steering Committee, Office of the General Counsel, Atomic Safety and Licensing Board Panel, and the Nuclear Energy Institute.
Program Review
We examined the NRC's License Renewal Program in both the areas of technical review and adjudicatory proceedings.  We met with industry representatives as well as NRC staff, and attended meetings where NRC, the industry, and the general public were present.  We attended workshops with regional inspectors from the NRR's Division of Reactor Safety, reviewed training materials, and examined milestone schedules.  We also observed the communication and working relationship between the NRC and the licensees.
We are providing comments on:
Training
Resolution of Outstanding Issues
Tracking Responses to Requests for Additional Information
Overall Results
General Observations
We found that the agency is actively reassessing its procedures, and taking steps toward making the process more efficient.  Although the license renewal process is still evolving, the agency has focused considerable attention on improving the structure and efficiency of the program and has made significant progress.  We noted that, currently, all of the established license renewal milestones have been met.  The agency has reduced the time requirements of its license renewal review and now plans to process the renewal applications of its earliest applicants within 30 to 36 months.  Further efficiencies are expected as the process becomes more familiar.
While planning for the license renewal reviews has been extensive, the agency is only now reviewing the first two applications and its program is still evolving.  The agency plans to use feedback and lessons learned from reviewing the first few applications to finalize its guidance, which is now in draft form.  Although complete and final guidance is unavailable at this time, the communication between NRC and the industry appears to be good and the licensees feel that the process is working.
Training
Training sessions developed for the reviewers and other involved NRC staff were non-mandatory, reportedly due to the experience of the reviewers, and NRR's plan to learn by doing with the first few applications.  It is NRR's intention to use lessons learned to finalize its procedures and guidance.  We believe that the unchartered nature of the license renewal program does limit the viability of prepared training at this stage.
Resolution of Outstanding Issues
At the time of our review, NRR had compiled a list of 30 outstanding license renewal issues raised by NRC staff, the industry, or the Electric Power Research Institute (EPRI).  EPRI is engaged in a collaborative effort with the Department of Energy to help plants through the renewal process from start to finish.  Some of the issues raised were technical issues requiring resolution to support the staff's review of a renewal application.  Others were identified as generic and non-generic issues important to the development of the license renewal application and review process.  We spoke with NRR management regarding the additional work requirements that may be placed on licensees and NRC staff due to these pending issues.  Our concern has been somewhat mitigated by the agency's focus on this matter, i.e., working with industry to prioritize and set a timetable for resolving the issues, and establishing a steering committee to oversee the process.
Tracking Responses to Requests for Additional Information
As the reviewers process the renewal applications, questions regarding the information submitted in the application are issued to the licensees as Requests for Additional Information (RAIs). The review of the first application for license renewal resulted in 453 RAIs.  The agency has a set a due date for the licensee's responses to these requests.
Although a report has been developed which tracks the outgoing RAIs, a system for tracking the responses has not been implemented.  Such a system would ensure that the agency is aware of overlooked or unanswered requests.  We believe this will become a necessary control as the number of applications increase.  As such, we encourage the agency to expand its tracking program to include a record of all responses received.
Future Work
OIG plans to continue monitoring the agency's progress in structuring its license
renewal program and finalizing it guidance. We have discussed the nature and
extent of our future involvement with NRR management.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees